No.

IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER
(Your Name)
VS.
SQVXCITOR G VOMERAL _ RESPONDENT(S)
PROOF OF SERVICE
T,

MBJVtfre- Z-UiVtAJEk

do swear or declare that on this date,
, 20.21, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
$OLVCXTO

Roth
cy 50

GUnAERAL Oflt GUTTER

SMU,

Of-

STATES

xQsthc^

PE.N U5Y LV(VKluft MEMQg-, MORTH UJEST, ^C 2.0S3Q-qqq|

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

3rd

,20.

21

CLJd&Jb
(Signature)

No.
IN THE
SUPREME COURT OF THE UNITED STATES
Adelaide Zindler - Petitioner
Vs.
U.S. Solicitor General - Respondent

On Petition for a Writ of Certiorari
To the Court of Appeals for the District of Columbia
CERTIFICATE OF COMPLIANCE WITH WORD-COUNT LIMITATIONS

Adelaide Zindler, Petitioner
125 15lh Street, N.E.. #4
WDC, 20002
202.578.3083
win@motherforce.us

I, Adelaide Zindler, pro se Petitioner certify that based on Rule 33. 1 (d) the Writ of Certiorari in
the above captioned case contains 3,176 words.
Respectfully,

Adelaide Zindler, Petitioner

/

